1a
APPENDIX A
United States Court of Appeals
For the First Circuit
-----------------------------------------------------------------------

No. 19-1503
QBE SEGUROS,
Plaintiff, Appellee,
v.
CARLOS A. MORALES-VÁZQUEZ,
Defendant, Appellant.
-----------------------------------------------------------------------

APPEAL FROM THE
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO
[Hon. Bruce J. McGiverin, U.S. Magistrate Judge]
-----------------------------------------------------------------------

Before
Barron and Selya, Circuit Judges,
and Katzmann, Judge.*
-----------------------------------------------------------------------

Alberto J. Castañer, with whom Castañer & Cía
P.S.C., Juan Rafael González-Muñoz, and González
Muñoz Law Offices, PSC were on brief, for appellant.
Manuel Sosa-Báez, with whom Ian P. Carvajal and
Saldaña, Carvajal & Velez-Rive, P.S.C. were on brief,
for appellee.
* Of the United States Court of International Trade, sitting
by designation.

2a
-----------------------------------------------------------------------

January 19, 2021
-----------------------------------------------------------------------

SELYA, Circuit Judge. This appeal involves a
dispute between a boat owner (who purchased a policy
of marine insurance without disclosing, among other
things, a prior grounding) and his insurance company.
Resolving the appeal requires us to revisit the doctrine
of uberrimae fidei – an entrenched principle of maritime law that imposes a duty of utmost good faith on
the parties to marine insurance contracts. Concluding,
as we do, that the district court faithfully applied this
doctrine, we affirm the entry of judgment in favor of
the insurer.
I.

BACKGROUND

We briefly rehearse the relevant facts and travel
of the case. In 2011, defendant-appellant Carlos
Morales-Vázquez (Morales) purchased an insurance
policy for his forty-foot Riviera yacht (the Riviera Policy) from Optima Insurance Company, an entity later
acquired by another insurance company, plaintiffappellee QBE Seguros (QBE). As part of his application for this insurance policy, Morales left blank the
spaces provided for answers to questions asking him
to describe his prior boating history and all accidents
related to any vessel he had previously owned, controlled, and/or operated. Morales renewed this policy
(with QBE) in both 2012 and 2013.

3a
In March of 2014, Morales applied for a separate
insurance policy for his forty-eight-foot Cavileer yacht
(the Cavileer Policy). Section seven of the application
required Morales to disclose any accidents or losses
sustained in connection with any vessel he had
owned, controlled, and/or operated. This time, Morales indicated that he had been involved in an accident some eleven years earlier, explaining that the
accident was a “propeller strike” and that “[p]ropellers
were replaced [and] shaft and rudders rectified.” But
Morales did not see fit to mention that in January of
2010 he had grounded a forty-foot Riviera Offshore
yacht in Fajardo, Puerto Rico.
The omission of the earlier grounding was not Morales’s only oversight. Section six of the application for
the Cavileer Policy required Morales to recount his
boat-ownership and boat-operating history. When responding, Morales listed only two of the seven boats
that he previously had owned and/or operated (a fortyfoot Riviera Offshore yacht and a forty-foot Riviera
Sport Fisherman). He omitted the remaining information called for by section six even though the application form plainly stated that “[i]f incorrect answers
are provided (either by error, omission or neglect), I
will be in breach of this warranty and the policy, if issued, will be void from inception.”
Morales submitted the application for the Cavileer
Policy to an insurance broker, who contacted an underwriter at QBE. The broker indicated that the putative insured wanted to obtain a quote the same day.
Thirty-six minutes after receiving the application, the

4a
underwriter quoted a premium to the broker. In pricing the quotation, the underwriter relied, among other
things, on the information contained in the applications for both the Riviera Policy and the Cavileer
Policy, as well as Morales’s “more than 15 years” of
nautical “owner experience.” QBE Seguros v. MoralesVázquez, No. 15-2091, 2018 WL 3763305, at *1-3
(D.P.R. Aug. 7, 2018). She later testified at trial that
she had evaluated the paperwork thoroughly before
authorizing the issuance of the policy. The net result of
the dealings between the broker and the underwriter
was that, as of March 7, 2014, Morales’s Cavileer yacht
was insured by QBE for the ensuing year in the face
amount of $550,000.
On October 24, 2014, the Cavileer yacht sustained
appreciable damage from a fire. Morales reported the
loss to QBE, and QBE retained an independent adjustor to work with its own employees toward resolving
Morales’s claim. Following a number of surveys, QBE
made a settlement offer in December of 2014: it offered
to pay Morales $63,774.10 in satisfaction of the loss.
Morales rejected the offer.
Negotiations between the parties continued over
the next few months, and Morales rejected several
other settlement offers from QBE. The tectonic plates
shifted, though, in May of 2015, when QBE became
aware of Morales’s 2010 grounding. QBE exercised its
right to question Morales under oath, and Morales admitted that he had not disclosed the 2010 grounding –
nor had he disclosed (in his application for the Cavileer

5a
Policy) the existence of five vessels that he previously
had owned and/or operated.
With Morales’s admissions in hand, QBE repaired
to the federal district court in mid-2015. Invoking the
court’s admiralty jurisdiction, see 28 U.S.C. § 1333,
QBE sought a declaratory judgment voiding the policy
on the grounds that Morales had failed to honor his
duty of utmost good faith (known as “uberrimae fidei”
in maritime law) in acquiring the Cavileer Policy
and, in the bargain, had breached the warranty of
truthfulness contained in the Cavileer Policy. Morales
answered QBE’s complaint, denied that QBE was entitled to the relief that it sought, asserted affirmative
defenses of waiver and estoppel, and counterclaimed
for damages arising out of QBE’s alleged bad faith. The
parties consented to proceed before a magistrate judge,
see 28 U.S.C. § 636(c); Fed. R. Civ. P. 73, and – following
preliminary motion practice and extensive pretrial discovery – they cross-moved for full or partial summary
judgment. The district court denied both motions, but
noted the relevance of the doctrine of uberrimae fidei
and QBE’s corresponding right to void the Cavileer
Policy if Morales had made a material omission or misrepresentation.
A six-day bench trial ensued. The district court reserved decision, entertained post-trial briefing, and
decided the case in a thoughtful rescript. The court
concluded that QBE was entitled to void the policy
for two independently sufficient reasons: Morales had
breached not only the duty of uberrimae fidei but also
the policy’s warranty of truthfulness. See QBE, 2018

6a
WL 3763305, at *16. In connection with the latter holding, the court rejected Morales’s affirmative defenses.
See id. at *12-14. This timely appeal followed.
II.

ANALYSIS

In this venue, Morales propounds four arguments.
First, he asks that we hold the doctrine of uberrimae
fidei inapplicable because of recent legal developments
in the United Kingdom. Second, he says that even if
the doctrine applies generally, the district court made
no finding that QBE actually relied on his omissions
and, thus, erred in holding that he had breached the
duty. Third, he argues that the district court erred in
finding that he breached the warranty of truthfulness.
And finally, he argues that his affirmative defenses
trump any right that QBE may have had to void the
Cavileer Policy. The first two arguments are obviously
related, and we discuss them together. As matters turn
out, the resolution of those arguments suffices to lay
this appeal to rest.
Given the thrust of Morales’s first argument, we
think it useful to start by sketching the evolution of the
doctrine of uberrimae fidei. The Latin phrase “uberrimae fidei” loosely translates as “utmost good faith.” See
Black’s Law Dictionary (10th ed. 2014). As relevant
here, the doctrine requires parties to a marine insurance contract to disclose all known facts or circumstances material to an insurer’s risk. See Windsor
Mount Joy Mut. Ins. Co. v. Giragosian, 57 F.3d 50, 5455 (1st Cir. 1995). Under the doctrine, an insurer may

7a
void a marine insurance policy if its insured fails to
disclose “all circumstances known to [the insured] and
unknown to the insurer” that materially impact the insurer’s risk calculus. Caitlin at Lloyd’s v. San Juan
Towing & Marine Servs., Inc., 778 F.3d 69, 83 (1st Cir.
2015) (emphasis in original); cf. Stipcich v. Metro. Life
Ins. Co., 277 U.S. 311, 316 (1928) (holding to like effect
with respect to certain contracts outside marine insurance context).
The origins of the doctrine can be traced back to
eighteenth-century London, which was – and remains
– a global insurance hub. In its nascent form, the doctrine applied to a myriad of insurance contracts across
a wide swath of industries. As early as 1766, Lord
Mansfield recognized that insurance contracts impose
a heightened duty of good faith to prevent a party from
omitting or concealing facts that would induce the
counterparty “into a bargain, from his ignorance.”
Carter v. Boehm (1766) 97 Eng. Rep. 1162, 1164 (K.B.).
Such a requirement was rooted in practical wisdom,
recognizing that an insurer often lacked the ability to
verify the insured’s representations before issuing a
policy. See Thomas J. Schoenbaum, Admiralty and
Maritime Law § 19:14, at 460 (6th ed. 2018). This
practical wisdom still rings true when applied to marine insurance – an industry in which, for example,
a policy may have to be issued in London, on a timesensitive basis, for a vessel berthed halfway across the
globe.
American courts first recognized the doctrine of
uberrimae fidei in connection with marine insurance

8a
contracts in the early nineteenth century. See McLanahan v. Universal Ins. Co., 26 U.S. (1 Pet.) 170, 185
(1828). In 1882, the Supreme Court confirmed the
strict disclosure requirements that the doctrine imposed on an insured. See Sun Mut. Ins. Co. v. Ocean
Ins. Co., 107 U.S. 485, 510-11 (1883).
For some time, American and English law concerning marine insurance continued to develop in parallel
through a parade of judicial decisions. Parliament,
however, codified the by-then-venerable doctrine of uberrimae fidei by including it in the Marine Insurance
Act of 1906 (1906 MIA). See Marine Insurance Act
1906, 6 Edw. 7 c. 41, § 17 (U.K.). Congress, however, remained silent; and American courts continued to develop their own federal common law of admiralty and
continued to interpret marine insurance policies as incorporating, by implication, the doctrine of uberrimae
fidei. See, e.g., San Juan Towing, 778 F.3d at 82; N.Y.
Marine & Gen. Ins. Co. v. Cont’l Cement Co., 761 F.3d
830, 839 (8th Cir. 2014); AGF Marine Aviation &
Transp. v. Cassin, 544 F.3d 255, 263 (3d Cir. 2008); Certain Underwriters at Lloyd’s, London v. Inlet Fisheries
Inc., 518 F.3d 645, 650 (9th Cir. 2008); HIH Marine
Servs., Inc. v. Fraser, 211 F.3d 1359, 1362 (11th Cir.
2000); Puritan Ins. Co. v. Eagle S.S. Co. S.A., 779 F.2d
866, 870 (2d Cir. 1985).1
1

There appears to be only a single outlier. See Albany Ins.
Co. v. Anh Thi Kieu, 927 F.2d 882, 889 (5th Cir. 1991). This decision not only flies in the teeth of case law from both the Supreme
Court and the overwhelming majority of circuits but also has
been much-criticized. See, e.g., Inlet Fisheries, 518 F.3d at 653

9a
Parliament lately adopted a number of insurance
reforms. As relevant here, Parliament passed the Insurance Act of 2015, which (among other things) effectively amended the 1906 MIA to preclude an insurer
from voiding a marine insurance policy by recourse to
the doctrine of uberrimae fidei. See Insurance Act
2015, c.4, § 14 (U.K.) (“Any rule of law permitting a
party to a contract of insurance to avoid the contract
on the ground that the utmost good faith has not been
observed by the other party is abolished.”). Even so,
Congress did not follow Parliament’s lead.
This lack of congressional action is significant. As
the federal common law of admiralty developed, the
Supreme Court acknowledged that congressional silence left room for courts, among others, to fill the vacuum.2 See Wilburn Boat Co. v. Fireman’s Fund Ins. Co.,
348 U.S. 310, 321 (1955) (“We, like Congress, leave the

(questioning the “logic chain” of Anh Thi Kieu); Thomas J.
Schoenbaum, The Duty of Utmost Good Faith in Marine Insurance Law: A Comparative Analysis of American and English Law,
29 J. Mar. L. & Com. 1, 11 (1998) (calling into question Anh Thi
Kieu decision because “no rule of marine insurance is better established tha[n] the utmost good faith rule”).
2
This means, of course, that questions sometimes arise in
maritime cases as to whether federal or state common law should
apply. See San Juan Towing, 778 F.3d at 76-80. Here, however,
the parties present their uberrimae fidei arguments exclusively
in terms of federal common law, and we therefore may accept the
parties’ plausible view that federal common law supplies the substantive rules of decision. Cf. Borden v. Paul Revere Life Ins. Co.,
935 F.2d 370, 375 (1st Cir. 1991) (holding that, in diversity jurisdiction, court may accept parties’ plausible agreement as to which
state’s law applies).

10a
regulation of marine insurance where it has been –
with the States.”).
Against this backdrop, Morales contends that Supreme Court precedent requires courts to harmonize
American and United Kingdom maritime law and that,
therefore, uberrimae fidei would have to be scuttled
(even if it included a requirement to prove reliance) to
match what Parliament wrought in the Insurance Act
of 2015. This contention poses a question of law, which
engenders de novo review. See Giragosian, 57 F.3d at 53.
Morales does not dispute that uberrimae fidei is
firmly entrenched in the jurisprudence of this circuit.
See San Juan Towing, 778 F.3d at 80-81 (holding “without further equivocation that the doctrine of uberrimae
fidei is an established rule of maritime law in this Circuit”). He nonetheless urges us to disregard our own
precedent, insisting that a trio of Supreme Court cases
compels us to do so. See Calmar S.S. Corp. v. Scott, 345
U.S. 427, 442-443 (1953); Standard Oil Co. of N.J. v.
United States, 340 U.S. 54, 59 (1950); Queen Ins. Co. of
Am. v. Globe and Rutgers Fire Ins. Co., 263 U.S. 487,
493 (1924). The rule that Morales draws from these
cases is that, in admiralty, federal common law should
be tailored (or re-tailored, if necessary) to mirror developments in English law. This is magical thinking: the
cases upon which Morales relies cannot bear the
weight that he loads upon them. We explain briefly.
To begin, the quoted statements that Morales excerpts from his coveted trio of Supreme Court cases are
dictum. None of them are meant to establish a binding
analytic framework. And when all is said and done,

11a
Morales identifies no case in which the Court based a
holding on English law. To confirm these points, we examine the cases that Morales cites.
In Queen Insurance, the Court was tasked with
deciding, for insurance purposes, whether the sinking of a commercial vessel traveling with a military
convoy resulted from “marine risks” or “war risks.” 263
U.S. at 490. To resolve this conundrum, the Court
looked primarily to a Court of Claims opinion, see Morgan v. United States, 5 Ct. Cl. 182, 194 (1869), which
itself drew on English insurance law principles, see
Queen Insurance, 263 U.S. at 492-93. Although Justice
Holmes noted that “special reasons [exist] for keeping
in harmony with the marine insurance laws of England,” id. at 493, the Court’s holding was in no way
based on English law.
In Calmar, the dispute involved a privately insured ship which – as a result of the attack on Pearl
Harbor – was diverted to Australia and detained there.
See 345 U.S. at 428-29. While detained, the ship was
damaged by enemy bombing. See id. at 430. The parties
quarreled over whether the ship’s insurance policy afforded coverage, and the lower court based its resolution of this controversy in part on a House of Lords
decision. See id. at 442 (citing Rickards v. Forrestal
Land, Timber and Rys. Co. (1942) A.C. 50). On review,
the Supreme Court cited an analogous English case as
“persuasive authority,” but made plain that it was “not
required” to adopt that particular interpretation. Id. at
443.

12a
The third case to which Morales adverts also involved war risk insurance. There, the insured alleged
that certain House of Lords decisions, which detoured
from the traditional proximate cause inquiry, dictated
the outcome. See Standard Oil Co. of N.J., 340 U.S. at
59, 60 n.12 (citing Yorkshire Dale S.S. Co. v. Minister of
War Transp. (1942) A.C. 691; Bd. of Trade v. Hain S.S.
Co. (1929) A.C. 534; Attorney-General v. Adelaide S.S.
Co. (1923) A.C. 292). Although the Court acknowledged
the general “desirability of uniformity” between
American and English law in the interpretation of
marine insurance policies, it cautioned that “this does
not mean that American courts must follow House of
Lords’ decisions automatically.” Id. at 59. Practicing
what it preached, the Court declined to follow the English precedents hawked by the insured. Id. at 61.
Standard Oil offers us two important takeaways.
First, American courts are not bound by legal developments in the United Kingdom. And even though the
Standard Oil Court was speaking of judicial decisions,
we think it follows, a fortiori, that acts of Parliament
are equally non-binding. Second, although harmony
between American and English admiralty law is desirable, “our practice is no more than to accord respect to
established doctrines of English maritime law.” Id. at
59. The respect accorded by American courts to English
maritime law stems from the wisdom of the particular
doctrine, not from either the acceptance or the rejection of that doctrine by Parliament. It follows, we
think, that federal courts tasked with hearing admiralty cases should take heed of developments in

13a
English law, but they are not obliged to change course
merely because Parliament acts to alter a previously
entrenched principle.
Let us be perfectly clear. We do not gainsay that
federal common law is intended to be dynamic and to
evolve over time. See, e.g., Nw. Airlines, Inc. v. Transp.
Workers Union of Am., AFL-CIO, 451 U.S. 77, 95-96
(1981) (discussing federal courts’ role in developing
“flexible” common law of admiralty). But Congress has
been conspicuously silent on issues of marine insurance, see Wilburn Boat Co., 348 U.S. at 321, and the
fact that federal common law has the capacity to evolve
does not mean that it is captive to the vagaries of Parliament (or any foreign legislature, for that matter).
At any rate, abandoning the doctrine of uberrimae
fidei in marine insurance cases would have rebarbative consequences, both upending settled law and disrupting an industry that has long been premised on
insureds telling the whole truth to insurers. Given this
grim prospect, we decline Morales’s invitation to remove the doctrine of uberrimae fidei from service and
place it in mothballs.
There are, of course, sound reasons to retain the
challenged doctrine. Although the availability of information has improved dramatically in recent times, a
marine insurer and its insured do not have equal access to the information needed to make underwriting
decisions and to set premiums. Long ago, Lord Mansfield famously wrote that “[i]nsurance is a contract
upon speculation. The special facts, upon which the

14a
contingent chance is to be computed, lie most commonly in the knowledge of the insured only.” Carter 97
Eng. Rep. at 1164. This remains true in the sphere of
marine insurance. Thus, even though uberrimae fidei
has been scuttled in other areas of insurance law, see
San Juan Towing, 778 F.3d at 75, the peculiarities of
marine insurance underscore the case for its continued
desirability.
This proposition hardly can be disputed. Marine
insurance is often needed at a moment’s notice, and insurers are frequently located far away from the vessel
that they are asked to insure. See id. at 80. The insurer’s task is made more formidable because the calculation of marine insurance premiums must take into
account not only the vessel’s history and particularities but also the maritime experiences of the owner
and/or operator. Time is frequently critical to the issuance of marine insurance policies, and this wide constellation of facts is difficult for an insurer to ascertain
on short notice unless it has the full and frank cooperation of the insured. See generally Mitchell J. Popham
& Chau Vo, Misrepresentation and Concealment in
Marine Insurance Contracts: An Analysis of Federal
and State Law Within the Ninth Circuit, 11 U.S.F. Mar.
L.J. 99, 104 (1998).
So, too, the asymmetry in the availability of information argues convincingly for the idea that the
doctrine of uberrimae fidei is necessary for the maintenance of an economically efficient marine insurance
industry. Requiring an insurer to ascertain difficult-tofind information about a risk will impose substantial

15a
costs on the industry – costs that are likely to be
passed along to policyholders in the form of higher premiums. Placing the burden of disclosure on the insured
(the party who knows or can most easily obtain the
necessary information) will reduce processing costs
and will help to keep premiums low. As one commentator aptly observed, uberrimae fidei is not “based on ‘old
fashioned’ moral principles . . . [i]t is a rule designed to
minimize costs to both insurers and assureds.” Schoenbaum, The Duty of Utmost Good Faith, supra note 1, at
3. The doctrine, therefore, remains “grounded in economic efficiency.” Id.
This case is a poster child for the continuing relevance of the doctrine. Morales admits that QBE’s
underwriter was “pressed for time because Morales
needed the insurance for that same day.” To accommodate Morales, QBE moved rapidly; it delivered the
requested coverage to Morales just thirty-six minutes
after his broker submitted his application. In other
words, the stringent burden of disclosure allowed
Morales to obtain marine insurance in a matter of
minutes.
Even so, clear sailing is not yet in sight. Morales
argues that, even if uberrimae fidei remains applicable
to marine insurance in American jurisprudence, the
district court misapplied the doctrine because it did
not make any finding that QBE actually relied on the
insured’s incomplete accident history and other omissions. To the extent that this claim of error turns on a
question of law, our review is de novo. See Giragosian,
57 F.3d at 53. To the extent that it implicates the

16a
district court’s factfinding, our review is for clear error.
See id.
Morales’s argument posits that QBE must show
that it actually relied on his omissions in issuing the
Cavileer Policy. This argument strikes a novel chord:
we have never held that actual reliance is a necessary
prerequisite for an insurer to void a marine insurance
policy under the doctrine of uberrimae fidei. Rather,
we have held that the materiality of a false statement
or an omission, without more, provides a sufficient
ground for voiding such a policy. See, e.g., San Juan
Towing, 778 F.3d at 83; Com. Union Ins. Co. v. Pesante,
459 F.3d 34, 37-38 (1st Cir. 2006); Grande v. St. Paul
Fire & Marine Ins. Co., 436 F.3d 277, 282-83 (1st Cir.
2006); Giragosian, 57 F.3d at 54-55. Several other
courts of appeals likewise have concluded that a showing that an omission or a representation relates to a
material fact is alone sufficient to void a marine insurance policy. See, e.g., Inlet Fisheries, 518 F.3d at 655;
AGF Marine Aviation, 544 F.3d at 262; HIH Marine
Servs., 211 F.3d at 1363. The commenters agree that,
under federal common law, the majority rule does not
require actual reliance in marine insurance cases. See,
e.g., Schoenbaum, Admiralty and Maritime Law, supra,
at 480; W. Benjamin Woody, Sinking Uberrimae Fidei:
How the Eighth Circuit’s Decision in St. Paul Fire &
Marine Insurance Co. v. Abhe & Svoboda, Inc., Accidentally Sank the Doctrine Before the Insurance Act
2015 Could, 40 Tul. Mar. L.J. 573, 584-85 (2016).
In an effort to blunt the force of these authorities,
Morales claims that three circuits – the Eleventh,

17a
Second, and Eighth – have required a showing of actual reliance. Morales’s claim, though, overstates the
matter.
Caselaw from the Eleventh Circuit contravenes
Morales’s claim. The case that he cites stands only for
the unremarkable proposition that misrepresentation
of a prior loss known to both parties “could not have
led [the insurer] to rely on that statement” and, thus,
could “in no way constitute a material misrepresentation in breach of uberrimae fidei.” I.T.N. Consolidators,
Inc. v. N. Marine Unders. Ltd., 464 Fed. Appx. 788, 794
(11th Cir. 2012) (dictum). That case was decided on
other grounds, see id. at 795, and the Eleventh Circuit
elsewhere has stated unequivocally that a material
misrepresentation, without more, is a sufficient basis
for voiding a marine insurance policy under uberrimae
fidei, see HIH Marine Servs., 211 F.3d at 1363.
The Second Circuit is more of a mixed bag. In the
case that Morales cites, the court merely assumed,
without deciding, that actual reliance was necessary.
See Fireman’s Fund Ins. Co. v. Great Am. Ins. Co., 822
F.3d 620, 638 (2d Cir. 2016). But our independent research indicates that the Second Circuit may, indeed,
require actual reliance when applying uberrimae fidei.
See Puritan, 779 F.2d at 871.
The Eighth Circuit case that Morales cites is favorable authority for his position. See St. Paul Fire &
Marine Ins. Co. v. Abhe & Svoboda, Inc., 798 F.3d 715,
721 (8th Cir. 2015). Even so, that court recognized that
its holding was contrary to the weight of authority. See

18a
id. And in all events, the opinion is suspect because the
Abhe court looked to insurance law outside the marine
insurance context, see id. at 720-21, and failed to
acknowledge in any way the special relationship between marine insurance and the doctrine of uberrimae
fidei.
In the end, we are not persuaded by Morales’s argument. For one thing, binding precedent does not support the inclusion of an actual reliance requirement
within the doctrine of uberrimae fidei. The Supreme
Court has used only a materiality test – without any
mention of actual reliance – in describing the preconditions for the application of uberrimae fidei in marine
insurance cases. See Sun Mut. Ins. Co., 107 U.S. at 50910. And in this circuit’s jurisprudence, materiality
alone has consistently been recognized as a sufficient
predicate for finding that an insured breached his duty
of uberrimae fidei. See, e.g., San Juan Towing, 778 F.3d
at 83.
For another thing, Morales does not argue in the
alternative that we should impose an actual reliance
requirement regardless of controlling precedent. He
does no more than cite some out-of-circuit cases that
follow the minority rule to support his claim that our
precedent also requires actual reliance. These references are insufficient to support departure from our
existing precedent. We hold, therefore, that the majority rule continues to abide in this circuit; that under
the majority rule, a showing of actual reliance is not
required; and that QBE had no need to show that it

19a
actually relied on Morales’s omissions in order to prevail under the doctrine of uberrimae fidei.3
Morales makes yet another effort to bail the water
out of his sinking ship. He submits that certain language in the Cavileer Policy modified the traditional
duty of uberrimae fidei and incorporated actual reliance into the contract. Specifically, he points to two
provisions:
•

A clause appearing on the bottom of each page
of the application, which states, “I also agree
that if the policy is issued, it was issued by you
based upon and in reliance of the truthfulness
and completeness of the answers provided
herein.”

•

A sentence in the “General Conditions and
Warranties” section of the Cavileer Policy,
which states, “This policy was issued based
upon and in reliance of the representations
made by you or your representative in the Application.”

Contrary to Morales’s importunings, this language
does nothing to water down the duty of uberrimae fidei.
These provisions appear to be little more than boilerplate contract terms, and we agree with the district
court that neither of them amounts to an unambiguous
statement modifying the duty of utmost good faith inherent in marine insurance contracts. See QBE, 2018
3

We note QBE’s insistence that actual reliance occurred
here. Like the district court, we have no need to reach that factbound issue.

20a
WL 3763305, at *7. To cinch the matter, other language
in the Cavileer Policy makes pellucid that the parties
did not intend to diminish the duty of uberrimae fidei:
If the named insured has, before or after a loss
made a false statement or representation
with respect to this insurance or has concealed or misrepresented any material fact or
circumstance relating to this insurance, this
policy shall be void and without effect. The
false statement or representation or concealment need not be related to the damages or
loss claimed in order to void the entire policy.
This language embodies the core of the uberrimae fidei
doctrine: that omission or misrepresentation of a material fact is a sufficient ground, in and of itself, to allow an insurer to void a policy of marine insurance.
For the sake of completeness, we note that our
analysis of the contractual language does not offer any
reason to move away from the overarching doctrine of
uberrimae fidei. Quite the contrary: the contractual
language provides strong support for the conclusion
that the doctrine of uberrimae fidei is alive and well in
marine insurance policies. Although the disclosure requirements in the contract align with those imposed
by the doctrine of uberrimae fidei, contractual requirements may operate as affirmative defenses. For example, waiver and estoppel may be affirmative defenses
to a claim that an insured has committed a breach of
a policy warranty, see, e.g., In re Frescati Shipping
Co., 718 F.3d 184, 214 (3d Cir. 2013); Suydam v. Reed
Stenhouse of Wash., Inc., 820 F.2d 1506, 1510 (9th Cir.

21a
1987), and Morales asserts them here. But he develops
no argument on appeal that these defenses apply
against the doctrine of uberrimae fidei. See HIH Marine Servs., 211 F.3d at 1362 n.2.
It is true, of course, that omitted facts must be material in order to provide an avenue for an insurer to
void an insurance policy under the doctrine of uberrimae fidei. See San Juan Towing, 778 F.3d at 83; Giragosian, 57 F.3d at 54-55. For such purposes, materiality
depends upon an objective standard. See San Juan
Towing, 778 F.3d at 82; see also Schoenbaum, Admiralty and Maritime Law, supra, at 480. Materiality is
to be gleaned by evaluating the likely impact of facts
that may influence a prudent insurer when considering whether to issue a particular policy. See Pesante,
459 F.3d at 38.
Here, the district court found that the incomplete
accident history (most notably, the earlier grounding)
crossed the threshold for materiality. See QBE, 2018
WL 3763305, at *8-9. On appeal, Morales makes no developed argument to the contrary. Given this unchallenged finding of materiality, the district court had an
impeccable predicate for applying the doctrine of uberrimae fidei.
We need go no further. From what we already have
said, it is evident that the court below carefully
threaded its way through the doctrinal complexities of
uberrimae fidei and supportably concluded that the

22a
doctrine entitled QBE to a declaration that the Cavileer Policy was void.4
III. CONCLUSION
The judgment of the district court is
Affirmed.

4

Given our conclusion that the district court did not err in
ruling that Morales breached the duty of uberrimae fidei, we have
no occasion to reach the parties’ arguments concerning breach of
the warranty of truthfulness, waiver, and estoppel.

23a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO
QBE SEGUROS,
Plaintiff,
v.
CARLOS A. MORALESVÁZQUEZ,

Civil No. 15-2091 (BJM)

Defendant.
OPINION IN A NON-JURY TRIAL
QBE Seguros (“QBE”) brought this action under
the court’s admiralty jurisdiction against Carlos
Morales-Vázquez (“Morales”), seeking a judgment
declaring that Morales’s marine insurance policy is
void ab initio under the doctrine of uberrimae fidei,
that Morales breached the “warranty of truthfulness”
in the application for the insurance policy, thereby
excusing QBE from making any payments to Morales
on the policy, or that the policy does not cover all of
Morales’s claimed losses. Docket No. 14 (“Compl.”).
Morales counterclaimed, alleging breach of contract
and entitlement to consequential damages due to
QBE’s bad-faith adjustment. Docket No. 15. I denied
both parties’ motions for summary judgment. Docket
No. 134. The case then proceeded to a six-day nonjury
trial. Transcripts were prepared. Docket Nos. 194, 196,
197, 203, 204, 207, 208, 211. The parties submitted

24a
post-trial briefs. Docket Nos. 212, 213. The case is
before me on consent of the parties. Docket No. 47. In
light of the findings of fact and legal discussion set
forth below, QBE’s action for declaratory judgment is
GRANTED, and Morales’s action is DISMISSED.
FINDINGS OF FACT
1.

In 2011, Morales applied for and received insurance policy OYP-0000746-00 from Optima Insurance Co. for a 2005 Riviera (“Optima Application).
Exhibits M, O. In the Optima Application, Morales
did not answer the questions that asked him
to describe any prior boating history and “any
accidents, claims or losses in connection with any
vessel you have sailed, owned or was under your
control.” Exhibit M. Policy OYP-0000746 was renewed multiple times. Exhibits P, R, HH.

2.

QBE is a Puerto Rico corporation authorized by
the Puerto Rico Insurance Commissioner’s Office
to sell ocean marine insurance. It acquired Optima
Insurance Co. in 2012.

3.

In March 2014, Morales applied for insurance
from QBE for his 48’ Cavileer yacht (“QBE Application”). Joint Exhibits II, X.

4.

The application form (“QBE Application”) states
that the “statements and answers provided [in the
application] are warranted by [the applicant] to
be true and correct.” Joint Exhibit II. The QBE
Application also states, “If incorrect answers are
provided (either by error, omission or neglect), I
will be in breach of this warranty and the policy, if
issued, will be void from inception. I understand I

25a
must fill out every question and that no question
should remain unanswered. If a question is
inapplicable, I am aware that I must write “N/A”
to so indicate. I agree that this declaration shall
form the basis of the contract of insurance between me and you. I also agree that if the policy is
issued, it was issued by you based upon and in
reliance of the truthfulness and completeness of
the answers provided herein.” Joint Exhibit II. The
declarations section of the QBE Application states,
“All questions asked herein request material information which is indispensable for QBE Optima
Insurance Company’s assessment of the risk
subject of this application.” Joint Exhibit II.
5.

Section seven of the QBE Application asked,
“Have you had any accidents or losses (even if no
insurance claim was filed) in connection with any
vessel you have operated, owned or was under
your control? If yes please provide full details,
including dates and amounts paid.” Morales
checked the box for yes and wrote, “Accident
11 years ago—propeller strike in Las Pelas at
Culebra. Propellers were replaced, shaft and
rudders rectified.” Joint Exhibit II. Morales did not
include the fact that he grounded a 40’ Riviera
Offshore yacht in January 2010 in Fajardo. Joint
Exhibits II, X; Transcript 06-28-18 AM at 4:3–5.

6.

Section six of the QBE Application required
Morales to “give details of boating experience by
providing, in chronological order, list of boats
owned or operated.” Joint Exhibit II. In answer to
the question, Morales listed only two of the seven
vessels that he had owned and operated. He listed
a 2001 40’ Riviera 4000 Offshore and a 2005 40’

26a
Riviera Sport Fisherman. He did not list a small
speedboat with a 35 h.p. engine; a 19’ Cobia with
a 175 h.p. outboard engine, a Yamaha Jet Boat, a
29’ Trophy with twin 225 h.p. outboards; and a 50’
Cherokee speedboat powered by diesel engines.
Transcript 06-28-18 AM at 18:18–20:2.
7.

Morales’s digital signature is on the QBE Application. Transcript 06-28-18 AM at 15:6–18.

8.

Angel Cruz-Rodriguez submitted Morales’s QBE
Application to Eribel Casado, an underwriter at
QBE, via email. Exhibit W. He wrote that the
application was “completed” and that he needed
the “premium as soon as possible to make the
policy today.” Exhibit W.

9.

Casado testified that after Cruz sent her Morales’s
QBE Application, she “evaluated the application
from beginning to end” and decided that the risk
was “within my authority and capacity[.]” Transcript 6-25-18 at 69:20–25.

10. When deciding whether to issue a quote, underwriters use the Underwriting Guidelines, underwriting worksheets in Excel, and their experience
and judgment. Transcripts 6-25-18 at 77:4–17; 626-18 AM at 10–12,48:2-15, 49:1–3.
11. In the underwriting Excel worksheet, it noted that
Morales had “more than 15 years” of “owner
experience.” Joint Exhibit IX.
12. QBE’s Underwriting Guidelines, which are used
to guide underwriters deciding whether to issue
a quote, are “intended to provide exhaustive
knowledge about our underwriting guidelines,
their interpretation and application to various

27a
risks and marinas.” Joint Exhibit W. The Underwriting Guidelines present a list of “minimum
information needed in order to quote”; the list does
not include the insured’s prior losses or boating
history. Joint Exhibit IV; Transcript 6-26-18 AM at
48:2–4.
13. Casado testified that “there are other determining
factors for you to evaluate a risk [other than what
is listed in the guidelines], such as experience and
the underwriter’s judgment. In this case, prior
losses or experience of the prospect are parts of
the underwriter’s evaluation criteria” because the
insurance company could accept or decline the risk
or change the amount of the premium based on the
prospect’s prior losses. Transcript 6-26-18 AM at
48:7–15.
14. Although Morales did report the propeller strike
on the QBE Application, the grounding in Fajardo
in 2010 was a very different claim. A grounding is
a significant loss for this type of insurance and its
existence is important in deciding whether to
accept the risk or not. Transcript 6-26-18 AM at
46:13–47:6.
15. Thirty-six minutes after receiving Cruz’s email,
Casado emailed Cruz back and attached a quote
for a policy that she “quoted basing [herself ] on
policy OYP-0000746-02.” Exhibit W.
16. Later that day, QBE issued Morales policy OYP00001077-00 for March 7, 2014 through March 7,
2015. Joint Exhibit I. Following an endorsement,
Morales held hull insurance for $550,000 for
Making Waves from QBE as well as P&I, medical payments and uninsured boater’s coverage,

28a
pursuant to all its terms, conditions, limitations
and exclusions. Joint Exhibit I; Exhibits J, X, AAA;
Docket No. 164 at 68 (“Stipulated Facts”).
17. On October 24, 2014, Making Waves sustained
damages as a result of a fire, and Morales alerted
QBE to the damage. Joint Exhibit X; Stipulated
Facts at 68
18. QBE appointed an independent adjustor, Pablo
Rios, to investigate and adjust Morales’s claim for
Making Waves. Transcript 6-28-18 PM at 15:6–11,
21:1–5. Of QBE’s employees, Jose Soto, QBE’s Vice
President of Claims, and Maria Berrios, a property
adjustor, also worked on the claim. Transcripts
6-25-18 at 19:3–13, 24:17–25; 7-13-18 at 13:11–14.
Berrios was in charge of coordinating meetings,
processing documents, and evaluating reports
related to the claim. Transcript 7-13-18 at 13:14–17.
19. Rios submitted his first report to QBE on October
28, 2014 after visiting Making Waves. Exhibit DD;
Transcript 6-28-18 PM at 25:13–26:10.
20. Rios then hired Edgardo Jimenez, a marine surveyor, to assess the physical condition of Making
Waves and to provide an opinion on the cost of
repairs. Transcripts 6-26-18 at 6:19–21; 6-25-18 at
25:6–8, 56:2–5; 6-28-18 PM at 25:1–6.
21. In late November 2014 (between November 21 and
26), Soto, Cruz, and Morales met to discuss the
claim related to the fire on Making Waves. Joint
Exhibit X. During the meeting, Cruz or Morales
told Soto that had this claim been made to
MAPFRE, it would have already been resolved.

29a
Transcripts 6-25-18 at 30:17–22; 6-28-18 AM at
38:1–4.
22. On November 24, 2014, Jimenez issued a Damage Survey Report after inspecting Making Waves
three times. Joint Exhibit VIII. The report included an estimate of damages based on discussions with other industry professionals and a
contractor’s similar jobs. Transcript 6-26-18 at
24:1–13.
23. On December 4, 2015, QBE made its first offer to
Morales of $63,774.10 based on Jimenez’s report,
which Morales rejected the next day. Joint Exhibit
X.
24. QBE asked the adjustors and surveyors to keep
working on the case to see if they missed anything or if another adjustment could be made.
Transcript 6-25-18 at 26:23–27:3.
25. On February 27, 2015, QBE and Morales met
again to discuss their difference in opinion on how
the electric cables in Making Waves should be
repaired and whether there needed to be further
tests for potential delamination on the vessel that
could have been caused by the fire. Joint Exhibit
X; Transcript 6-28-18 AM at 41:24–42:2.
26. On March 21, 2015, QBE made a second offer to
Morales of $66,258.03. Joint Exhibit X. The offer increased because QBE received an invoice
regarding the emergency management of the fire
that increased the expenses. Transcript 6-25-18
at 27:4–15. Morales rejected the offer. Transcript
6-25-18 at 27:16–18.

30a
27. On April 14, 2015, QBE made a third offer to
Morales of $113,406, which was then re-stated on
May 4, 2015. Joint Exhibit X. The offer was based
on an estimate completed by Island Marine, which
had agreed to do the repairs for Making Waves for
that same amount of money (minus deductibles
and depreciation). Joint Exhibit V; Exhibit 31;
Transcript 6-28-18 at 28:11–20. Morales rejected
the offer. Transcript 6-28-18 at 29:5–30:2.
28. QBE also sought a second repair estimate from
Island Marine to see how much it would cost to
conduct the repairs in the way that Morales
wanted. Joint Exhibits VI; Transcript 7-13-18 at
24:13–25:12.
29. QBE’s position from the beginning of the loss
adjustment process was that if any hidden damages appeared that were not contemplated in the
original offer, that QBE would evaluate them after
they were corroborated. Transcript 7-13-18 at
27:20–28:6. Rios told this to Morales. Transcript
6-28-18 PM at 42:24–43:1.
30. On May 7,2015, Morales met at QBE with Soto,
Berrios, Jimenez, Rios, Cruz, and an engineer
who Morales brought. Joint Exhibit X; Transcript
06-25-18 at 32:7–10, 48:11–49:4.
31. After Morales, Cruz, and the engineer left the
meeting, Edgardo Jimenez told Soto, Berrios, and
Rios that he had heard from a colleague of an
alleged prior recent grounding by Morales. Joint
Exhibit X. Soto told Rios to investigate the alleged
grounding to determine if it was true. Transcripts
6-25-18 at 32:14–16, 51:4–12; 6-28-18 PM at
45:13–17. Soto wanted the grounding investigated

31a
because he knew it could lead to the annulment of
Morales’s policy. Transcript 6-25-18 at 33:7–13,
52:14–53:25.
32. Rios understood that he should report back to
QBE when he had the information. Transcript
06-28-18 PM at 50:23–51:1. Between receiving
the assignment and reporting his findings to
QBE, Rios took a month-long vacation. Transcript
06-28-18 PM at 46:4–21.
33. As part of his investigation, Rios contacted Sea
Tow and other contractors at Marina Puerto del
Rey. Transcript 6-28-18 PM at 47:17–22. Sea Tow,
which had done the salvage of the grounded vessel,
confirmed the grounding. Transcript 6-28-18 AM
at 22:7–20, 55:1–56:8. By the time Rios spoke with
Javier Menendez of Sea Tow, Rios already knew
that Morales had a previous insurance claim with
MAPFRE, which Menendez confirmed. Transcript
6-28-18 AM at 58:7–61:9.
34. Rios sent an email to Soto on July 10,2015,
confirming the 2010 grounding. Joint Exhibit X;
Exhibit BBB. QBE then contacted its attorneys
and summoned Morales for an Examination
Under Oath. Transcript 6-25-18 at 34:20–23.
35. Between the May 7 meeting and Rios’s email on
July 10, QBE continued working on adjusting
Morales’s claim, including seeking a new estimate from an electrician. Transcript 06-27-18 at
18:4–19:23, 20:12–15, 23:6–11.
36. On August 7, 2015, QBE examined Morales under
oath. Joint Exhibit X. When questioned by QBE,
Morales admitted under oath that he owned or

32a
operated five vessels that he did not include in the
QBE Application and that he did not disclose the
2010 grounding. Joint Exhibit III; Transcript
6-29-18 at 40:6–14, 47:2–23
37. On August 10, 2015, QBE informed Morales that
it was rescinding his policy and offered to return
the premium. Joint Exhibit X; Stipulated Facts at
69.
38. Cruz has worked as an insurance agent for thirtytwo years and holds an authorized representative license. Exhibit K; Transcript 06-28-18AM at
64:16–19, 65:15–67:6.
39. In 2014, Colonial Insurance Agency (“Colonial”)
was the general agent of QBE as well as other
insurance companies such as AIG, ACE, and USIC.
Transcript 6-29-18 at 17:18–23; Stipulated Facts
at 69. Cruz placed Morales’s QBE Application with
Colonial, which received and processed Morales’s
QBE Application. Transcript 6-29-18 at 6:24–7:1;
Stipulated Facts at 69. In 2014, Rafael Padial was
the President of Colonial. Transcript 6-29-18 at
4:11–13. Padial could not find Cruz’s authorized
representative license on file at QBE, Optima, or
Colonial nor any document that reflected that he
had been an agent authorized by QBE before 2016.
Transcript 6-29-18 at 12:22–13:2, 19:7–24. Cruz
also testified that he did not have a written
authorized representative agreement with QBE.
Transcript 6-28-18 PM at 4:22–24, 9:5–7.
40. Colonial had a “Producer Commission Statement”
for Cruz that reflected his commissions, payments,
and deductions; it was an account of Cruz’s rolling
account with QBE. Exhibit YY; Transcript 6-29-18

33a
at 16:9–17:3. It also had a general ledger reflecting
the transactions related to business produced by
Cruz at Colonial from 2006–2016. Exhibit E;
Transcript 6-29-18 at 6:24–7:1, 14:23–15:11.
Padial explained that if Cruz was transacting
business from 2006–2016 then he would have had
an authorized representative license in effect
during that time as well. Transcript 6-29-18 at
15:21–15:24.
41. Cruz did not call anyone at QBE when he received
the subpoena to testify because, as he explained,
“I don’t know anybody at QBE.” Transcript 6-28-18
PM at 11:1–5. Cruz barely does business with
QBE. He does not know anybody in QBE’s claims
department. Transcript 6-28-18 PM at 10:19–22.
42. Cruz works with “almost all the companies in
Puerto Rico” including MAPFRE, Universal, QBE,
Integrand, and Multinational (formerly National
Insurance). Transcript 6-28-18 AM at 68:4–20.
43. Cruz started doing business with QBE because
insurance agents, like himself, are “always looking
for options for our clients.” Transcript 6-28-18 AM
at 69:9–12 He wants to make sure that his clients,
like Morales, get the best coverage and the best
terms in the insurance market, which is why he
negotiates with different insurance companies to
get his clients the best deal possible. Transcript
6-28-18 PM at 6:9–21. Cruz considers the insurance companies his clients as well as Morales.
Transcript 6-28-18 PM at 6:9–12.
44. Cruz’s self-described role in the application
process for insurance is to provide advice to the
insured and help in completing the application.

34a
Transcript 6-28-18 AM at 71:4–10. In terms of
the claims process, Cruz “speak[s] with the
insured, and I take the details of the claim, and I
forward that to the insurance company.” Transcript 6-28-18 AM at 71:11–15. When receiving an
insurance claim, Cruz is representing the insured.
Transcript 6-28-18 AM at 71:16–72:11.
45. Throughout Berrios’s emails to Rios, Soto, Jimenez,
Morales, and Cruz, Berrios always differentiated
Rios, Soto, Jimenez, and herself as representatives
of QBE, and Cruz and Morales as representatives
of the insured. Exhibit 10; Transcript 7-13-18 at
14:18–15:1, 16:7 23:17. Cruz was not invited to
internal QBE meetings nor did anyone ask Berrios
to invite Cruz. Transcript 7-13-18 at 18:1–15,
20:10–15.
DISCUSSION
QBE alleges that Morales made two material
misrepresentations in his application to QBE for
insurance for his vessel: it contends that Morales
misrepresented his prior boating history and his prior
loss history. Compl. ¶ 17. Misrepresentation is “the act
or an instance of making a false or misleading
assertion about something, usu[ally] with the intent to
deceive. Misrepresentation, Black’s Law Dictionary
(10th ed. 2014).
Within federal maritime law, there are at least two
doctrines that excuse an insurer from paying on a
policy where the insured misrepresented facts. The
first, uberrimae fidei, or the duty of utmost good faith,

35a
is unique to maritime law. Catlin at Lloyd’s v. San
Juan Towing & Marine, 778 F.3d 69, 75 n.6 (1st Cir.
2015) (explaining that although at one time good faith
was a requirement in contract law, it now only exists
in maritime insurance). To prove a breach of the duty
of utmost good faith, the insurer must show that the
insured misrepresented a material fact. Id. at 83.
Materiality is judged based on an objective standard.
St. Paul Fire & Marine Ins. Co. v. Halifax Trawlers, Inc.,
495 F. Supp. 2d 232, 240 (D. Mass. 2007). Equitable
affirmative defenses are not available. HIH Marine
Servs., Inc. v. Fraser, 211 F.3d 1359, 1362 (11th Cir.
2000).
The second doctrine is based in federal contract
law and is applicable where the contract between
the parties includes a warranty of truthfulness. If
the contract does include a promissory warranty of
truthfulness, then the insured’s misrepresentation of
fact in that contract will also excuse the insurer from
paying on the policy. See Markel Am. Ins. Co. v. Leonor
Veras, 995 F. Supp. 2d 65, 77 (D.P.R. 2014) (finding the
language of the insurance policy contained a warranty
of truthfulness and that the defendant’s misrepresentations had breached that warranty). To prove a breach
of the warranty of truthfulness, the insurer must show
that the insured misrepresented a fact. Leonor Veras,
995 F. Supp. 2d at 77. The contract itself controls any
interpretation of the contract terms. Norfolk S. Ry. Co.
v. Kirby, 543 U.S. 14, 31–32 (2004). Equitable affirmative defenses are available. Suydam v. Reed Stenhouse of Washington, Inc., 820 F.2d 1506, 1510 (9th

36a
Cir. 1987); Natures Way Marine, LLC v. Everclear of
Ohio, Ltd., 37 F. Supp. 3d 1232, 1242 (S.D. Ala. 2014),
amended, No. 1:12-CV-316, 2014 WL 5465885 (S.D.
Ala. Oct. 28, 2014).
Morales argues that QBE cannot annul the policy
under uberrimae fidei because it cannot prove the required elements, or under the warranty of truthfulness
because Morales can prove the affirmative defenses
of waiver and equitable estoppel. Docket No. 213.
Morales also avers that QBE delayed the adjustment
of his claim in violation of the Puerto Rico Insurance
Code and engaged in bad faith post claim underwriting, both of which entitle him to reasonable
attorneys’ fees. Id.
Uberrimae Fidei
“This dispute concerns a marine insurance contract and therefore is governed by the principle of
uberrimae fidei, or utmost good faith.” St. Paul Fire &
Marine Ins. Co. v. Abhe & Svoboda, Inc., 798 F.3d 715,
719 (8th Cir. 2015). Uberrimae fidei requires the
insured “to place the underwriter in the same situation as himself; to give to him the same means
and opportunity of judging of the value of the risks.”
State Nat. Ins. Co. v. Anzhela Explorer, L.L.C., 812
F. Supp. 2d 1326, 1351 (S.D. Fla. 2011) (quoting Sun
Mut. Ins. Co. v. Ocean Ins. Co., 107 U.S. 485, 510–11
(1883)). Accordingly, under this “strict maritime rule,”
the “insured must make full disclosure of all material
facts of which the insured has, or ought to have,

37a
knowledge . . . even though no inquiry be made.” Catlin
(Syndicate 2003) at Lloyd’s v. San Juan Towing &
Marine Servs., Inc., 974 F. Supp. 2d 64, 78 (D.P.R. 2013)
(quoting Grande v. St. Paul Fire & Marine Ins. Co., 436
F.3d 277, 283 (1st Cir. 2006)). Otherwise, the policy is
voidable. Catlin at Lloyd’s, 778 F.3d at 83; see Sealink,
Inc. v. Frenkel & Co., 441 F. Supp. 2d 374, 386 (D.P.R.
2006). The doctrine places a “high burden” on the insured as “[i]t is of no consequence whether the insured’s misrepresentation or nondisclosure occurred
due to fraud, negligence, accident, or mistake.” Catlin
(Syndicate 2003) at Lloyd’s, 974 F. Supp. 2d at 78
(internal quotations omitted).
Morales argues that the test for uberrimae fidei is
two-pronged: the misrepresented or non-disclosed fact
must be material, and the insurer must have relied on
the misrepresentation or omission in issuing the policy.
See Docket No. 213 at 33 (citing precedent from the
Eighth, Second, and Fifth Circuits). However, as I
previously explained in my order denying summary
judgment, Docket No. 134, the First Circuit’s binding
precedent does not require actual reliance as part of
the analysis. Catlin at Lloyd’s, 778 F.3d at 82. Instead,
the First Circuit simply requires materiality: “Under
uberrimae fidei, when the marine insured fails to disclose to the marine insurer all circumstances known
to it and unknown to the insurer which ‘materially
affect the insurer’s risk,’ the insurer may void the
marine insurance policy at its option.” Id. at 83 (internal citations omitted). In its implementation of
its own test, the First Circuit found that the insurer

38a
“could have reasonably” made assumptions and evaluations based on the insured’s failure to disclose the
true value of the vessel. Id. at 82 (emphasis added).
Notably, the court did not ask whether the insurer
actually did make its evaluations based on the false
value of the vessel, only that it could have. Therefore,
this court is also bound to consider only the materiality
of Morales’s non-disclosures as opposed to what information QBE actually relied upon in choosing to issue
a policy.
Morales alternatively argues that QBE “expressly
incorporated the element of reliance into its policy and
applications.” Docket No. 213 at 38. Courts have found
that parties may “‘contract around’ state or federal law
with regard to an insurance contract” as long as it
does not violate public policy or statutory law. King v.
Allstate Ins. Co., 906 F.2d 1537, 1542 (11th Cir. 1990).
In King v. Allstate Insurance Company, the Eleventh
Circuit held that the insurance policy’s statement,
“[t]his policy is void if you intentionally conceal or
misrepresent any material fact” represented the parties’ intention to contract around federal law that
otherwise would not have required intent, and thus
the parties had created their own standard that the
insurance company was bound to follow in seeking to
annul the policy. 906 F.2d at 1539, 1542. But see New
Hampshire Ins. Co. v. C’Est Moi, Inc., 519 F.3d 937,
939 (9th Cir. 2008) (insurance policy language that
coverage “shall be voided if [CMI] intentionally conceal[s] or misrepresents any material fact” was not
specific enough supersede the doctrine of uberrimae

39a
fidei because “only ‘an unambiguous statement’ in the
policy, purporting to supersede the doctrine in express
terms, would be sufficient to accomplish that purpose”
(quoting T. Schoenbaum, The Duty of Utmost Good
Faith in Marine Insurance Law: A Comparative
Analysis of American and English Law, 29 J. Mar. L. &
Com. 1, 13 (1998))).
Leaving aside whether the language presented to
both the Eleventh and Ninth Circuits was sufficiently
specific to supersede the doctrine of uberrimae fidei,
the language presented by Morales clearly does not
come close to that threshold. As Morales states, both
the QBE Application and the subsequent policy state
that the policy is issued “based upon and in reliance of
the truthfulness of the answers provided herein.” Joint
Exhibits I, II; Docket No. 213 at 34. However, on the
QBE Application two lines above that statement is the
separate explanation of what actions would cause the
policy to be void, and nowhere in that description does
it state that QBE had to have relied on the incorrect
answer for the policy to be voided. Joint Exhibit II.
Unlike in King v. Allstate Insurance Company where
the insurance policy explicitly stated that it would only
be voided if the insured intentionally concealed a fact,
here the QBE Application (and policy with comparable
language) does not explicitly state that it would be
voided only if the insured omitted a fact that QBE
relied upon. In a similar situation, another court
explained:
[W]e doubt whether the longstanding maritime doctrine can be modified by contract

40a
simply by pointing to the boilerplate ‘knowledge and belief ’ certification on an application, as opposed to an actual provision within
the policy itself that defines and narrows
the duty of disclosure as was the case in
King. . . . Given how entrenched the doctrine
is in the maritime insurance context, it
seems to us that a much more explicit and
unambiguous contractual modification would
have to be enacted to modify the traditional
test.
State Nat. Ins. Co. v. Anzhela Explorer, L.L.C., 812
F. Supp. 2d 1326, 1352 n.3 (S.D. Fla. 2011). Morales’s
argument that the word “reliance” in the QBE Application and policy represents the intention of the
parties to contract around the doctrine of uberrimae
fidei therefore fails. The question instead is whether
Morales “fail[ed] to disclose to [QBE] all circumstances known to [him] and unknown to [QBE] which
materially affect [QBE]’s risk[.]” Catlin at Lloyd’s, 778
F.3d at 83 (internal quotations omitted).
A fact is material if it “can possibly influence the
mind of a prudent and intelligent insurer in determining whether it will accept the risk.” Halifax Trawlers,
Inc., 495 F. Supp. 2d at 240 (quoting Commercial
Union Ins. Co. v. Pesante, 459 F.3d 34, 38 (1st Cir.
2006)); see Grande v. St. Paul Fire & Marine Ins. Co.,
436 F.3d 277, 282 (1st Cir. 2006) (material means
“something that affects the risk and might lead either
to a higher premium or a refusal of insurance”); RLI
Ins. Co. v. JDJ Marine, Inc., No. 07-CV-9546, 2012 WL
3765026, at *5 (S.D.N.Y. Aug. 29, 2012) (“[A] material

41a
omission exists where the insurer would decide to not
issue a policy, or to issue a policy charging a higher
premium, if it was aware of the insured’s nondisclosure.”); see also Sun Mut. Ins. Co. v. Ocean Ins.
Co., 107 U.S. 485, 510–511 (1883) (“[W]hen any circumstance is withheld, however slight and immaterial it
may have seemed to himself, that, if disclosed, would
probably have influenced the terms of the insurance,
the concealment vitiates the policy.”). When determining materiality, “[t]he standard for disclosure is an
objective one, that is, whether a reasonable person in
the assured’s position would know that the particular
fact is material.” Knight v. US. Fire Ins. Co., 804 F.2d
9,13 (2d Cir. 1986).
Casado, QBE’s underwriter, testified that prior
loss history is an important factor to take into consideration when evaluating the risk posed by issuing a
particular policy. As she explained, “prior losses or
experience of the prospect are parts of the underwriter’s evaluation criteria. We could offer a higher
premium or a lower premium or accept or decline a
risk, depending on the prior losses that the prospect
has had.” Transcript 6-26-18 AM at 48:11–15. And,
specifically, to this case, Casado explained that the loss
reported by Morales—a propeller strike—was a very
different claim than the grounding in Fajardo in 2010
such that the disclosure of the former did not excuse
the nondisclosure of the latter: “a grounding is definitely a significant loss for this type of insurance . . .
[it] is definitely important information in deciding
whether to accept the risk or not.” Transcript 6-26-18

42a
AM at 46:13–47:6; see Fed. Ins. Co. v. PGG Realty, LLC,
538 F. Supp. 2d 680, 688 (S.D.N.Y. 2008), aff ’d sub
nom. Fed. Ins. Co. v. Keybank Nat. Ass’n, 340 F. App’x 5
(2d Cir. 2009) (“Federal has failed to convince the
Court that its own underwriters considered any of
the alleged misrepresentations or nondisclosures to be
material, a fact that, while not dispositive, plainly
bears on the determination of what an objective insurer and an objective insured would have considered
material.”). No witnesses contested Casado’s explanation of the importance of prior loss to an underwriter’s
assessment. In addition, by signing the QBE Application, Morales acknowledged that “[a]ll questions asked
herein request material information which is indispensable for QBE Optima Insurance Company’s
assessment of the risk subject of this application.”
Joint Exhibit II. This not only supports QBE’s argument that prior loss history is a material fact to
them, but it also means that a reasonable person in
Morales’s position would know that prior loss history,
as a question asked on the QBE Application, was
material.
To be sure, Morales argues that QBE’s actions and
guidelines demonstrate that prior loss history was
not material to QBE. First, Morales cites Kantrowitz
v. Paul Revere Life Insurance Company for the proposition that an insurer must “present documentation concerning its underwriting policies such as its
underwriting manuals” that prove that it considered a
particular fact material to its assessment. Docket No.
213 at 31 (citing No. 95-CV-2204, 1997 WL 128463, at

43a
*4 (S.D.N.Y. March 19, 1997)). However, the court in
that case was applying New York law, which is not
applicable here. Federal law, on the other hand, does
not require that the insurer provide written proof. See
AIG Centennial Ins. Co. v. O’Neill, No. 09-60551-CW,
2013 WL 10450139, at *17 (S.D. Fla. May 9, 2013), aff ’d
on other grounds, 782 F.3d 1296 (11th Cir. 2015) (direct
testimony of witnesses attesting that “a valid disclosure of prior losses could have affected the terms of the
Policy . . . is all that is required” to prove materiality);
St. Paul Fire & Marine Ins. Co. v. Halifax Trawlers, Inc.,
495 F. Supp. 2d 232, 240 (D. Mass. 2007) (underwriting
manager’s statement that knowledge of damage to
the insured’s vessel was material and “highly relevant”
was sufficient to prove materiality such that no reasonable juror could find otherwise).
Morales correctly points out that QBE’s Underwriting Guidelines, which are used to guide underwriters deciding whether to issue a quote, state that
they are “intended to provide exhaustive knowledge
about our underwriting guidelines, their interpretation and application to various risks and marinas” and
yet do not mention prior loss history as a factor to
consider. Joint Exhibit IV. Although the description of
the guidelines suggests that it is intended to be exhaustive, the section on what underwriters should
consider when issuing a quote states that it is only a
list of the “minimum information needed.” Joint Exhibit W. The fact that the guidelines represent the
minimum information required was bolstered by
Casado’s testimony: she explained that when deciding

44a
whether to issue a quote, underwriters use the Underwriting Guidelines, QBE’s underwriting worksheets in Excel, and their experience and judgment.
Transcripts 6-25-18 at 77:4–17; 6-26-18 AM at 10–12,
48:2–15, 49:1–3. Therefore, despite the contradictory
language in the guidelines, I find that QBE has
proved that prior loss history “could possibly influence
the mind of a prudent and intelligent insurer in
determining whether it will accept the risk.” Halifax
Trawlers, Inc., 495 F. Supp. 2d at 240 (quoting Commercial Union Ins. Co. v. Pesante, 459 F.3d 34, 38 (1st
Cir. 2006)).
Moreover, it is entirely logical that an insured’s
loss history would affect their premiums and whether
an insurance company would want to accept the risk
of issuing them a policy; it is similarly logical that
Morales would have understood that his prior loss
history could have affected the terms of his policy. See
id. (acknowledging that while the court is not “an expert
in the field of boat construction[,]” the materiality
of the incident was clear); see also Certain Underwriters at Lloyd’s v. Montford, 52 F.3d 219, 222–23 (9th
Cir.1995) (maritime insurance applicant’s loss history
was a material fact); Catlin (Syndicate 2003) at Lloyd’s
v. San Juan Towing & Marine Servs., Inc., 979
F. Supp. 2d 181, 190 (D.P.R. 2013), aff ’d as modified
sub nom. Catlin at Lloyd’s v. San Juan Towing &
Marine, 778 F.3d 69 (1st Cir. 2015) (“[I]nformation
about loss history is material to an evaluation of the
risk.”); AIG Centennial Ins. Co., No. 09-60551-CW, at
*15–16 (listing cases that demonstrate that “[c]ourts in

45a
the Eleventh Circuit have held that a misrepresentation as to loss history is material to the underwriting
of a marine insurance policy” and reaching the same
conclusion itself ); Great Lakes Reinsurance PLC v.
Arbos, No. 08-20439-CIV, 2009 WL 8642003, at *5 (S.D.
Fla. Jan. 6, 2009) (“[A] prospective insured’s loss history is undoubtedly material, as it might have a
bearing on the risk to be assumed by the insurer.”).
Morales did not make a full disclosure of all
material facts known to him when he sought maritime
insurance from QBE. Morales argues, though, that the
material fact known to him—the grounding in 2010—
was also known by QBE because its alleged agent,
Cruz, knew of the grounding. Cruz was involved in the
adjustment by MAPFRE of the 2010 grounding and
consequently was aware of its existence. Transcript
06-28-18 AM at 75:17–76:6, 89:3–24. Therefore, the
question is whether Cruz is an agent of QBE such that
his knowledge is imputed to QBE.
With no specific federal rule governing agencyprincipal law in the context of maritime insurance
contracts, Puerto Rico law dictates whether Cruz is an
agent of QBE. See Littlefield v. Acadia Ins. Co., 392 F.3d
1, 6 (1st Cir. 2004); Suydam, 820 F.2d at 1509 (9th Cir.
1987) (applying Washington law to question of agency
relationship). An agent is a person who has contracted
“to render some service, or to do something for the
account or at the request of another.” 31 L.P.R.A.
§ 4421. The principal’s offer of authority may be express or implied, inferred “from the acts of the principal, from acts or deeds which manifestly reveal

46a
such declaration of consent necessarily implying,
evidently and clearly, the intent to be bound.” Bank of
Nova Scotia v. Velez Rullan, 91 P.R.R. 347, 353, 91
D.P.R. 358 (1964) (citing 31 L.P.R.A. § 4422); see CMI
Capital Mkt. Inv., LLC v. Municipality of Bayamon, 410
F. Supp. 2d 61, 75 (D.P.R. 2006). The agent’s acceptance of authority “may also be express or implied, the
latter being inferred from the acts of the agent.” 31
L.P.R.A. § 4422. When an agent-principal relationship
exists, “[a]n agent is bound to perform services at the
request of his principal, P.R. Laws Ann. tit. 31, § 4421,
and the principal implicitly delegates the necessary
authority to the agent to administer property that is
essential to the agency.” Gonzalez-Gonzalez v. United
States, 581 F. Supp. 2d 272, 280 (D.P.R. 2008) (citing
Velez Rullan, 91 P.R. at 353–54, 91 D.P.R. 358). Consequently, “it is reasonable to impute the agent’s
knowledge of pertinent facts to his principal.” Id.
Here, the evidence does not support a finding that
Cruz was QBE’s agent. The evidence proves that Cruz
holds an authorized representative license and did so
at all relevant times during this case. Exhibit K;
Transcript 06-28-18AM at 64:16–19, 65:15–67:6. However, the evidence is equally clear that Cruz was not an
authorized representative for QBE. Under Puerto Rico
law, an authorized representative is defined as “a
producer that subscribes a contract with an insurer to
negotiate insurance on his behalf, be it as employee
or as independent contractor.” P.R. Laws Ann. tit. 26
§949b (emphasis added). Furthermore, “No producer
may act as authorized representative of an insurer,

47a
unless he/she subscribes a contract with the insurer
through which the insurer authorizes the producer to
negotiate insurance on behalf and in representation of
the insurer.” P.R. Laws Ann. tit. 26 §9491(1). The
testimony of both Padial and Cruz shows that Cruz
never had a contract with QBE. 1. Transcripts 6-29-18
at 12:22–13:2, 19:7–24; 6-28-18 PM at 4:22–24, 9:57. In
addition, there is no evidence that either QBE or Cruz
notified the Office of the Insurance Commissioner of
Cruz’s designation as QBE’s authorized representative. See P.R. Laws Ann. tit. 26 §9491(2) (Puerto Rico
law requires that the Office of the Insurance Commissioner be notified of the designation of authorized
representative).1
Although an agency relationship may also be
implied and does not necessarily require a written
contract, there is no evidence that QBE made an offer
of authority to Cruz nor that he accepted an offer of
authority from QBE such that Cruz should be considered QBE’s agent. Cruz explained that while he
considers both QBE and Morales as his clients, he
1

Moreover, it does not appear that this is a dispositive issue
as the Supreme Court of Puerto Rico has specifically differentiated between an authorized representative and a general agent,
the latter of which has the authority to bind the principal.
Rodriguez de Oller v. Transamerica Occidental Life Ins. Co., 2007
TSPR 98, 2007 WL 1723369, at *4–5 (P.R. May 30, 2007) (an
authorized representative “is the insured’s advisor, who guides
the insured . . . for the purpose of asserting his or her rights, and
who on other occasions is the good man who amicably intervenes
between the company and the insured to happily resolve the
insurer’s objections and reservations” whereas a general agent
“stands in the shoes” of the insurer (internal quotations omitted)).

48a
started working with QBE because he was always
“looking for options” for his clients. Transcript 6-28-18
AM at 69:9–12. He also wants to make sure that his
clients, like Morales, get the best coverage and the best
terms in the insurance market, which is why he
negotiates with different insurance companies to get
his clients the best deal possible. Transcript 6-28-18
PM at 6:9–21. This mentality does not reflect that Cruz
sees himself as an extension of QBE or has such a
loyalty to QBE that he considers himself “bound to
perform services at the request of QBE. See GonzalezGonzalez, 581 F. Supp. 2d at 280. It is also not clear
who would have requested that Cruz perform services
for QBE since Cruz testified, “I don’t know anybody at
QBE” and that he barely does business with QBE.
Transcript 6-28-18 PM at 11:1–5. In fact, Cruz appears
to see himself as an advocate for the insured. When
asked about his role in the application process for
insurance, Cruz explained, “If the insured asks me for
advice with the application, then I will advise them
with the, with regard to the application, completing the
application.” Transcript 6-28-18 AM at 71:4–10. Cruz
described his role in the claims process as, “Within
the claim, I speak with the insured, and I take the
details of the claim, and I forward that to the insurance company.” Transcript 6-28-18 AM at 71:11–15.
Morales’s counsel then asked Cruz, “who are you
representing when you take a claim from an insured?”,
and Cruz responded, “the insured.” Transcript 6-28-18
AM at 71:16–18. When asked again, “Who are you
representing when you receive an insurance, an

49a
insurance claim?”, Cruz again responded, “the insured.”
Transcript 6-28-18 AM at 72:7–11.
There is also no evidence that QBE intended itself
to be bound by the actions of Cruz. QBE’s general
agent, Colonial Insurance Agency had a “Producer
Commission Statement” for Cruz that reflected his
commissions, payments, and deductions; it was an
account of Cruz’s rolling account with QBE. Exhibit
YY; Transcript 6-29-18 at 16:9–17:3. Notably, while
Puerto Rico law does not allow people who have an
authorized representative license to act as a producer,
QBE still had Cruz’s commissions listed as those of a
producer. See P.R. Laws Ann. tit. 26 § 949i(6) (no
person shall be issued a license as both a producer and
an authorized representative). Morales also presented
a general ledger reflecting the transactions related
to business produced by Cruz at Colonial Insurance
Agency from 2006–2016, but it is of little use because
there is no demarcation of which, if any, of the transactions reflect business done with QBE as opposed to
one of the other insurance companies that Colonial
represented. Exhibit E; Transcript 6-29-18 at 14:23–15:11,
17:18–23; Stipulated Facts at 69. And, specific to the
insurance adjustment at issue in this case, QBE always treated Cruz as a representative of Morales
as opposed to QBE: unlike other QBE independent
contractors, he was not invited to internal QBE meetings, only to meetings where Morales was also present.
Exhibit 10; Transcript 7-13-18 at 14:18–15:1, 16:7–
23:17.

50a
I find that Cruz was not an agent of QBE during
the adjustment of Morales’s claim. There were no other
individuals brought forward at trial as alleged agents
of QBE who knew about the 2010 grounding. QBE
carried its burden of proof in showing that Morales
did not disclose the 2010 grounding, a material fact
that he knew but QBE did not. Thus, under the doctrine of uberrimae fidei, the policy for Making Waves is
voidable by QBE. Because only one nondisclosure is required to void a policy under the doctrine of uberrimae
fidei, I will not discuss QBE’s allegation that Morales’s
failure to list five of his previous boats is also a valid
ground on which to void his policy under uberrimae
fidei. See Docket No. 212 at 69.
Morales argues that he has an equitable defense
to QBE’s assertion of the doctrine of uberrimae fidei:
waiver. Docket No. 213 at 42. However, as discussed at
length in my order denying summary judgment,
Docket No. 134, unlike in contract law, the doctrine of
uberrimae fidei does not incorporate the affirmative
defense of waiver. HIH Marine Servs., Inc., 211 F.3d
at 1362 (“[U]berrimae fidei does not permit the use
of the principles of waiver and estoppel to provide
coverage where there has been a material misrepresentation on the application.” (internal quotations
omitted)); SW Traders, LLC v. United Specialty Ins. Co.,
No. 09-CV-778, 2009 WL 5215762, at *8 (W.D. Wash.
Dec. 29, 2009), aff ’d, 409 F. App’x 96 (9th Cir. 2010).
Consequently, Morales’s arguments regarding the
affirmative defense of waiver are immaterial.

51a
Warranty of Truthfulness
QBE also asserts that it has the right to void
Morales’s policy because Morales breached his insurance policy’s warranty of truthfulness when he
failed to disclose his prior boating experience on his
application for insurance from QBE. Docket No. 212 at
57.
As there is no dispute that the insurance policy
is a maritime insurance contract, “federal law controls the contract interpretation.” Leonor Veras, 995
F. Supp. 2d at 77; see Fed. Marine Terminals, Inc. v.
Worcester Peat Co., 262 F.3d 22, 26 (1st Cir. 2001)
(citing Garza v. Marine Transport Lines, Inc., 861 F.2d
23, 26 (2d Cir. 1988) (turning to “principles of general maritime contract law to determine” the meaning
of the contract). In Norfolk S. Ry. Co. v. Kirby, the
Supreme Court made clear that courts must look to the
plain language when interpreting a maritime contract
and read the language “naturally.” 543 U.S. at 31–32
(citing Green v. Biddle, 8 Wheat. 1, 89–90, 5 L.Ed. 547
(1823) (“[W]here the words of a law, treaty, or contract,
have a plain and obvious meaning, all construction, in
hostility with such meaning, is excluded”)). If the terms
of the contract are ambiguous, i.e. “capable of more
than a single meaning,” only then may the court
examine parol evidence. Fed. Marine Terminals, Inc.,
262 F.3d at 26–28 (quoting Garza, 861 F.2d at 27) (“the
district court properly refused to consider evidence
of any negotiations or extrinsic documents to alter
that language” after finding that the contract language
was unambiguous); see CTI-Container Leasing Corp. v.

52a
Oceanic Operations Corp., 682 F.2d 377, 382 (2d Cir.
1982) (citing Restatement (Second) of Contracts § 213
(1979)) (“The general rule is that the terms of an
unambiguous, integrated contract may not be varied
by parol evidence.”).
“Under federal law, ‘a breach of a promissory
warranty in a maritime insurance contract excuses the
insurer from coverage.’” Leonor Veras, 995 F. Supp. 2d
at 77 (quoting Lloyd’s of London v. Pagán-Sanchez,
539 F.3d 19,24 (1st Cir. 2008)). This is true even if the
breach was “collateral to the primary risk that is the
subject of the contract.” Id. (quoting Pagán–Sánchez,
539 F.3d at 24–26). The unambiguous language of QBE
Application states that “[t]he information provided in
the Application is warranted by you to be true and
correct in all respects.” Joint Exhibit II (emphasis
added). Interpreting the plain language of the contract, it is clear that the QBE Application includes
a warranty of truthfulness. See Leonor Veras, 995
F. Supp. 2d at 77 (finding that the insurance application, where the wording is nearly identical to Morales’s
QBE Application, was written such that it was “clear
that the truthfulness of all representations made
therein is warranted by the applicant and that
incorrect answers constitute breach of that warranty”).
As in Leonor Veras, Morales breached that warranty
when he failed to tell the insurer “of the other vessels
he had previously owned” and of his 2010 grounding.
Id. The QBE Application required Morales to “give
details of boating experience by providing, in chronological order, list of boats owned or operated” and to

53a
provide “full details, including dates and amounts
paid” of “any accidents or losses (even if no insurance
claim was filed) in connection with any vessel you have
operated, owned or was under your control[.]” Joint
Exhibit II. Although Morales listed two vessels, he
failed to list five other vessels that he now admits
to previously owning or operating. Joint Exhibit I;
Transcript 06-28-18 AM at 18:18–20:2. Morales also
did not include the fact that he grounded a 40’ Riviera
Offshore yacht in January 2010 in Fajardo. Joint
Exhibits II, X; Transcript 06-28-18 AM at 4:3–5.
The warranty of truthfulness was material to the
risk assumed by QBE in issuing the policy. The QBE
Application clearly states that the insurance policy
would be “issued by [QBE] based upon and in reliance
of the truthfulness and completeness of the answers
provided herein.” Joint Exhibit II. As explained earlier,
a fact is material if it “can possibly influence the mind
of a prudent and intelligent insurer in determining
whether it will accept the risk.” Halifax Trawlers, Inc.,
495 F. Supp. 2d at 240 (quoting Pesante, 459 F.3d at 38).
Here, the contract is unambiguous that the warranty
is material as it states that QBE would rely on and
be influenced by Morales’s answers in determining
whether to accept the risk of issuing an insurance
policy. Moreover, the declarations page on the QBE
Application, which Morales signed, includes an acknowledgement that “all questions asked herein
request material information which is indispensable
for QBE Optima Insurance Company’s assessment of

54a
the risk subject of this application.” Joint Exhibit II
(emphasis added).
As the contract language is unambiguous, QBE is
entitled to declaratory judgment as a matter of law
that Morales’s breach of the warranty of truthfulness
renders the policy voidable unless Morales can mount
an affirmative defense.
Morales raises two affirmative defenses to his
breach of the warranty of truthfulness: estoppel and
waiver. Unlike in the doctrine of uberrimae fidei, federal contract law does provide for both defenses.
Suydam, 820 F.2d at 1510 (“[A]n insurer may be
estopped from asserting a breach of warranty.”);
Natures Way Marine, LLC, 37 F. Supp. 3d at 1242
(“[C]ontract law recognizes that parties can waive
breach of contract claims.”); see In re Frescati Shipping
Co., Ltd., 718 F.3d 184, 214 (3d Cir. 2013) (allowing
a party to raise equitable defenses in a maritime
contract controlled by federal law).
“[G]rounded on a notion of fair dealing and good
conscience,” equitable estoppel “operates to preclude a
party who has made representations of fact through
his words or conduct from asserting rights which
might perhaps have otherwise existed as against
another person, who has in good faith relied upon
such conduct, and has been led thereby to change his
position for the worse, and who on his part acquired
some corresponding right.” Gibbs ex rel. Gibbs v.
Carnival Cruise Lines, 314 F.3d 125, 133 (3d Cir. 2002)
(quoting Marine Transp. Svcs. Sea-Barge Group, Inc. v.

55a
Python High Poi: Marine Corp., 16 F.3d 1133, 1138
(11th Cir. 1994) and Oxford Shipping Co., Ltd. v. New
Hampshire Trading Corp., 697 F.2d 1, 4 (1st Cir. 1982)).
Although Puerto Rico law governs “[b]ecause there
is no established rule governing the doctrine of equitable estoppel in marine insurance contracts,” federal
common law and Puerto Rico law require the same
elements for an estoppel claim. Yu v. Albany Ins. Co.,
281 F.3d 803, 811 n.9 (9th Cir. 2002); see Littlefield,
392 F.3d at 6 (1st Cir. 2004) (applying New Hampshire
state law after noting that “general principles of contract law are used to interpret marine insurance
policies”). Under federal common law, the party asserting equitable estoppel must prove: “1) the party to be
estopped makes a misrepresentation of fact to the
other party with reason to believe that the other party
will rely upon it; 2) and the other party reasonably
relies upon it; 3) to her detriment.” Pagane Mar Ltd. v.
Glingrow Holding Ltd., No. 07 CIV. 10726 (PKL), 2008
WL 276489, at *5 (S.D.N.Y. Jan. 31, 2008) (quoting
Kosakow v. New Rochelle Radiology Assocs., 274 F.3d
706, 725 (2d Cir. 2001)).
Puerto Rico has a doctrine that is “parallel to the
doctrine of estoppel in English” called “doctrine of one’s
own acts.” CMI Capital Mkt. Inv., LLC v. Municipality
of Bayamon, 410 F. Supp. 2d 61, 76 (D.P.R. 2006) (“The
doctrine of one’s own acts flows from Art. 7 of the
Puerto Rico Civil Code, 31 P.R. Laws Ann. § 7 (1993),
which allows the court to interject equity principles in
the absence of a specific applicable legal provision.”).
The doctrine of one’s own acts applies when “a) A

56a
certain behavior of a subject, (b) that he has given life
to a situation contrary to reality, that is, apparent and,
through such appearances, may influence the behavior
of others, and (c) that it be the basis of the trust of
another party which has acted in good faith and that,
for that reason, has acted in a manner which would
cause him prejudice if his trust was defrauded.” Int’l
Gen. Elec. v. Concrete Builders, 4 P.R. Offic. Trans,
1221, 1229 (P.R. May 19, 1976); see Santiago v. Ecolab,
Inc., 303 F. Supp. 2d 51, 54 (D.P.R. 2004), vacated
and remanded on other grounds sub nom. HernandezSantiago v. Ecolab, Inc., 397 F.3d 30 (1st Cir. 2005)
(to establish liability, plaintiff must prove “(a) specific
conduct, (b) which has brought about an apparent
situation contrary to reality and capable of influencing
the conduct of others, and (c) another party who has
acted in good faith and in reliance thereto would be
prejudiced should its trust be defrauded”); see also
King v. TL Dallas & Co., 270 F. Supp. 2d 262, 267
(D.P.R. 2003) (“[T]he Puerto Rico Supreme Court has
upheld the use of equitable principles, particularly the
doctrines of ‘waiver’ and ‘estoppel’, in the application
or interpretation of insurance contract provisions.”).
Morales argues that QBE must be estopped from
voiding the policy based on Morales’s breach of the
warranty of truthfulness because QBE misrepresented
to him that prior loss history and boating experience
were not material facts that could lead to voiding the
policy and Morales relied on that misrepresentation to
his detriment because he assumed he had insurance
when he did not. Docket No. 213 at 53. Morales alleges

57a
that QBE misrepresented to him that his prior loss
history and boating experience would not be considered material facts by issuing and renewing policy
OYP-0000746, which was based on the Optima Application where Morales left blank the questions that
asked him to describe any prior boating history and
“any accidents, claims or losses in connection with
any vessel you have sailed, owned or was under your
control.” Exhibits M, P, R, HH. Furthermore, Casado
wrote in an email that she based herself on that same
policy when issuing the policy at issue in this case.
Exhibit W. However, Morales does not provide any evidence that his choice to ignore the explicit admonitions
in the QBE Application—that prior loss history and
boating experiences were material facts—in favor of
his assumptions based on QBE’s handling of his other
policy was made in good faith.
In the face of QBE’s clear written policy delineating the importance of completing the QBE Application accurately, Morales had to present some
evidence that QBE’s conduct was capable of influencing him despite his reading of the policy, and that
his reliance was in good faith. In Rodriguez de Oller
v. Transamerica Occidental Life Ins. Co., the Supreme
Court of Puerto Rico found that an insurer was
estopped from cancelling a life insurance policy based
on the insured’s failure to comply with the express
payment terms of the contract when the insurer had
unilaterally changed the manner of payment and kept
the policy active by collecting the premium through
monthly deductions for over a year; the insurer never

58a
sent a cancellation note; and the insurer’s agent, who
had the authority to “make decisions on the effectiveness of the policy” actually arranged for the payment
of benefits to the insured’s widow. 2007 TSPR 98, 2007
WL 1723369 at *7 (P.R. May 30, 2007). In comparison,
Morales has not shown nearly the same level of good
faith reliance as he has merely pointed to QBE’s decision to renew a separate policy even though Morales
had failed to follow QBE’s instructions and withheld
his prior losses and boating experience. This is insufficient to tip the scales in his favor. For the same
reasons, Morales has also failed to prove that his
actions were reasonable. Morales’s affirmative defense
of estoppel is denied.
Applying Puerto Rico law, this court explained, “a
waiver may be implied from any act or pattern of
conduct by the insurer or its authorized agents which
reasonably tends to create a belief in the mind of the
claimant under the policy that a specified act will be
unnecessary.” Metlife Capital Corp. v. Water Quality
Ins. Syndicate, 100 F. Supp. 2d 90, 96 (D.P.R. 2000)
(internal quotations omitted). “The doctrine of waiver
entails the intentional abandonment or voluntary
relinquishment of a right or privilege.” Rodriguez de
Oiler v. Transamerica Occidental Life Ins. Co., 2007
TSPR 98, 2007 WL 1723369 at *6 (P.R. May 30, 2007)
(citing Lopez v. Atlantic Southern Ins. Co., 158 D.P.R.
562 (2003); Rosario v. Atl. Southern Ins. Co. of PR., 95
P.R.R. 742 (1968)).2 The waiver “may be express or
2

Notably, this is the same test as under federal law:
“[w]aiver is the intentional relinquishment of a known right, and

59a
implied, and may be manifested by conduct or by
words, or by oral or written statements,” but the
insurer must know of “said right or privilege” and
intend “to abandon it.” Id.
Morales argues that QBE knew of his breach of
the warranty of truthfulness and yet continued to
adjust his claim thus abandoning its right to void the
policy on that basis. Docket No. 213 at 48. Specifically,
Morales argues that because Morales left the questions about prior losses and boating experience on
the Optima Application blank and provided partial
answers to the same questions on the QBE Application, QBE should have recognized and addressed the
“inconsistency.” Id. at 48–49. There is a hole in this
logic, though: the blank answer in an application to
Optima and the answer that Morales provided in his
QBE Application are not inconsistent in the same way
that a “yes” and a “no” to the same question would be.
Morales has presented no evidence that the two blank
answers in the previous application should have
triggered Casado to realize that Morales’s answers in
the QBE Application were incomplete and did not
include his prior grounding and ownership of five other
vessels. With no proof that QBE knew of the right
it was allegedly abandoning, Morales cannot prove a
waiver defense.

a party’s intent to waive a right can be drawn from conduct that
is inconsistent with the assertion of that right.” Natures Way
Marine, LLC, 37 F. Supp. 3d 1 at 1242.

60a
Morales’s other grounds are similarly unavailing.
QBE’s records stated that Morales’s owner experience
was “Much Experience, More than 15 years.” Joint
Exhibit IX. Morales asks the court to then extrapolate
that QBE knew of the other five boats that he owned
presumably because calculations based just on the
information in the QBE Application would have only
connoted at most thirteen years of experience (the
application was placed in 2014 and he listed a 2001
Riviera that he had owned). In addition to the fact
that Morales cannot meet his burden of proof merely
through guesswork, Morales’s theory does not address
that he also breached the warranty of truthfulness by
failing to mention the 2010 grounding.
Morales next argues that QBE found out about the
2010 grounding in both November 2014 and May 2015
and that by failing to immediately void the policy, QBE
waived its right to do so. In November 2014, Soto,
Morales, and Cruz all met to discuss the adjustment of
Morales’s claim. Joint Exhibit X. The three parties’
highly divergent and impeached testimony regarding
that meeting left no clear evidence that Morales or
Cruz told Soto about the existence of the 2010 grounding
in any identifying specificity. See Transcripts 6-28-18
AM at 87:1–90:16; 6-28-18 PM at 8:1–25 (Cruz testified
that Morales told Soto all about the 2010 grounding,
which was in direct contradiction to his prior deposition testimony; that Morales and Soto debated their
points; and that Morales told Soto that the claim
would have been resolved already if it had been with
MAPFRE); 6-28-18 AM at 28:19–35:21, 38:1–4 (As

61a
opposed to the February or May meetings, Morales
remembered all of the details of what he said in the
November meeting but could not remember what Soto
or Cruz said except that Cruz told Soto that the claim
would have been resolved already if it had been with
MAPFRE and that Soto said nothing except that
Morales could contest the adjustment offer when
it was completed); 6-25-18 at 30:17–22 (Soto only remembered that Morales said that the vessel should be
declared a total loss, that he did not want the vessel
anymore, and that if the claim had been with MAPFRE
it would have been resolved already). While all three
witnesses agree that someone told Soto that if the
claim had been with MAPFRE, it would have been over
already, there was no reliable evidence that QBE was
put on notice at the November meeting that Morales
had a claim with MAPFRE stemming from his 2010
grounding.
In May 2015, the parties both agree that Jimenez
told Soto about a rumor he had heard that Morales
had a previous grounding claim with MAPFRE and
that Soto then immediately told Rios to investigate
the rumor. Joint Exhibit X; Transcripts 6-25-18 at
32:14–16, 51:4–12; 6-28-18 PM at 45:13–17. Rios
emailed Soto in July to report that Morales had in fact
grounded a vessel in 2010. Joint Exhibit X; Exhibit
BBB. In the interim, QBE had been working to continue to try to rectify the differences in opinion
between it and Morales on how to repair Making
Waves. Transcript 06-27-18 at 18:4–19:23, 20:12–15,
23:6–11. While it may have been better for Rios to

62a
conduct his investigation in a more expedited fashion,
Morales presented no evidence that the delay from
May to July created a reasonable belief in his mind
that QBE no longer cared about his prior loss history
nor that the delay evinced QBE’s intention to waive
their interest in his prior loss history. See Metlife
Capital Corp., 100 F. Supp. 2d at 96. As such, Morales’s
waiver defense is under-developed and fails to meet his
burden of proof.
Consequently, Morales breached the warranty of
truthfulness in the QBE Application and policy by
failing to disclose his prior loss history and his prior
boating experiences. His breach gives QBE the right to
void the policy for Making Waves.
Morales alleges that he is entitled to attorney’s
fees because of QBE’s unfair claim adjustment practices or actions as delineated in P.R. Laws Ann. tit. 26
§ 2716a. Because QBE has the right to void the policy from its inception and thus Morales had no
coverage for Making Waves, “it necessarily follows
that [Morales] [i]s not entitled to damages for [QBE]’s
allegedly tortious acts in refusing to pay the claim”
under federal or Puerto Rico law. Commercial Union
Ins. Co. v. Flagship Marine Servs., Inc., 190 F.3d 26,34
(2d Cir. 1999); see Oriental Fin. Grp., Inc. v. Fed. Ins.
Co., 598 F. Supp. 2d 199,227 (D.P.R. 2008) (“The Court
clarifies it is aware that under Puerto Rico law, there
is no specific statute providing a cause of action for bad
faith refusal to settle a claim. . . . As such, although
the ‘dolo’ claim is not a separate ‘cause of action,’ it is
contingent upon the breach of contract claim (in this

63a
case, wrongful refusal of coverage).”); Certain Interested Underwriters at Lloyd’s, London v. Bear, LLC, 259
F. Supp. 3d 1050, 1061–62 (S.D. Cal. 2017) (“Because
the Court concludes that Bear was not entitled to coverage for the Polar Bear’s loss, it necessarily follows
that Bear is not entitled to damages for Underwriters’
alleged breach of contract and tortious conduct in
refusing to pay for damages relating to the Polar Bear’s
total loss.”).
In addition, as Morales cannot show that QBE
lacked a reasonable basis for denying his claim, to
prevail in maintaining a claim for a bad faith adjustment by QBE, Morales must prove that QBE’s
conduct “denoted ‘either conscious wrongdoing [or]
reckless indifference.” King v. TL Dallas & Co., 270
F. Supp. 2d 262,270 (D.P.R. 2003) (quoting Event
Producers, Inc. v. Tyser & Co. N. Am., Inc., 854 F. Supp.
35 (D.P.R. 1993), aff ’d 37 F.3d 1484 (1st Cir. 1994)
(noting that the court places “particular emphasis on
the willful nature of the insurer’s failure to pay on
the claim” when analyzing the insured’s duties under
P.R. Laws Ann. tit. 26 §§ 2716a and 2716b)). Morales
presented no evidence at trial of QBE’s conscious
wrongdoing or reckless indifference during the adjustment process. Although he points to the difference in
amount in the three offers as proof that QBE was
engaged in bad faith adjusting, both parties agree that
QBE based its offers on estimates of damages provided
by different contractors, namely Jimenez and Island
Marine. Joint Exhibit V, VIII, X; Exhibit 31; Transcripts 6-25-18 at 27:4–15; 6-26-18 at 24:1–13; 6-28-18

64a
at 28:11–20. With no evidence that QBE’s decision to
rely on experts to conduct damage reports and then
make its offer based on those reports was in bad faith,
Morales’s claim fails.
Finally, Morales argues that QBE engaged in bad
faith post-claim underwriting by only investigating an
application for a policy after the policy is granted and
a claim has been filed rather than before the policy was
granted. Docket No. 213 at 63. In addition to the fact
that Morales has no basis for his claim of bad faith
given that there is no contract between QBE and
Morales under which to bring it, Morales’s arguments
also run counter to the doctrine of uberrimae fidei,
which requires the insured “to place the underwriter
in the same situation as himself; to give to him the
same means and opportunity of judging of the value of
the risks.” State Nat. Ins. Co. v. Anzhela Explorer,
L.L.C., 812 F. Supp. 2d 1326, 1351 (S.D. Fla. 2011)
(quoting Sun Mut. Ins. Co., 107 U.S. at 510–11). In
maritime law, the insurer is not obligated to go out and
do its own research into the validity of the insured’s
claims in his application; instead, the insured is
responsible for making a “full disclosure of all material facts” to the insurer. Catlin (Syndicate 2003) at
Lloyd’s v. San Juan Towing & Marine Servs., Inc., 974
F. Supp. 2d 64, 78 (D.P.R. 2013) (quoting Grande v.
St. Paul Fire & Marine Ins. Co., 436 F.3d 277, 283 (1st
Cir. 2006)). The evidence show that QBE relied on the
facts presented by Morales to issue his policy; under
uberrimae fidei, Morales cannot now argue that QBE

65a
should have investigated the information he presented
to see whether or not it was true.
CONCLUSION
For the foregoing reasons, QBE is entitled to a
declaratory judgment as a matter of law, as Morales’s
breach of the doctrine of uberrimae fidei and of the
warranty of truthfulness placed QBE in a peculiarly
difficult position to assess the risks involved in
insuring the vessel. Accordingly, QBE’s action for
declaratory judgment is GRANTED; QBE is excused
from payment on any losses under policy OYP-00001077.
Morales’s claims are DISMISSED.
IT IS SO ORDERED.
In San Juan, Puerto Rico, this 7th day of August,
2018.
/s/ Bruce J. McGiverin
BRUCE J. McGIVERIN
United States Magistrate Judge

66a
APPENDIX C
Selected British Statutes
Marine Insurance Act 1906, 6 Edw. 7, c. 41, §§ 1720 (U.K.) (as originally enacted)
17.

Insurance is uberrimae fidei

A contract of marine insurance is a contract based
upon the utmost good faith, and, if the utmost good
faith be not observed by either party, the contract may
be avoided by the other party.
18.

Disclosure by assured

(1) Subject to the provisions of this section, the assured must disclose to the insurer, before the contract is concluded, every material circumstance
which is known to the assured, and the assured is
deemed to know every circumstance which, in the
ordinary course of business, ought to be known by
him. If the assured fails to make such disclosure,
the insurer may avoid the contract.
(2) Every circumstance is material which would influence the judgment of a prudent insurer in fixing
the premium, or determining whether he will take
the risk.
(3) In the absence of inquiry the following circumstances need not be disclosed, namely:
(a) Any circumstance which diminishes the risk:
(b) Any circumstance which is known or presumed
to be known to the insurer. The insurer is presumed to know matters of common notoriety

67a
or knowledge, and matters which an insurer
in the ordinary course of his business, as such,
ought to know;
(c) Any circumstances as to which information is
waived by the insurer;
(d) Any circumstance which it is superfluous to
disclose by reason of any express or implied
warranty.
(4) Whether any particular circumstance, which is
not disclosed, be material or not is, in each case, a
question of fact.
(5) The term ‘circumstance’ includes any communication made to, or information received by, the assured.
19.

Disclosure by agent effecting insurance

Subject to the provisions of the preceding section as to
circumstances which need not be disclosed, where an
insurance is effected for the assured by an agent, the
agent must disclose to the insurer—
(a) Every material circumstance which is known to
himself, and an agent to insure is deemed to know
every circumstance which in the ordinary course
of business ought to be known by, or to have been
communicated to, him; and
(b) Every material circumstance which the assured is
bound to disclose, unless it come to his knowledge
too late to communicate it to the agent.

68a
20. Representations pending negotiation of contract
(1) Every material representation made by the assured or his agent to the insurer during the negotiations for the contract, and before the contract is
concluded, must be true. If it be untrue the insurer
may avoid the contract.
(2) A representation is material which would influence the judgment of a prudent insurer in fixing
the premium, or determining whether he will take
the risk.
(3) A representation may be either a representation
as to a matter of fact, or as to a matter of expectation or belief.
(4) A representation as to a matter of fact is true, if it
be substantially correct, that is to say, if the difference between what is represented and what is actually correct would not be considered material by
a prudent insurer.
(5) A representation as to a matter of expectation or
belief is true if it be made in good faith.
(6) A representation may be withdrawn or corrected
before the contract is concluded.
(7) Whether a particular representation be material
or not is, in each case, a question of fact.

69a
Marine Insurance Act 1906, 6 Edw. 7, c. 41, §§ 1720 (U.K.) (as currently in force)
17.

Insurance is uberrimae fidei

A contract of marine insurance is a contract based
upon the utmost good faith.
Consumer Insurance (Disclosure and Representations) Act 2012, c. 6, §§ 1-2, 4, 11(1)-(2) (U.K.) (as
originally enacted)
1.

Main definitions

In this Act—
“consumer insurance contract” means a contract of
insurance between—
(a) an individual who enters into the contract
wholly or mainly for purposes unrelated to the
individual’s trade, business or profession, and
(b) a person who carries on the business of insurance and who becomes a party to the contract
by way of that business (whether or not in accordance with permission for the purposes of
the Financial Services and Markets Act 2000);
“consumer” means the individual who enters into
a consumer insurance contract, or proposes to do
so;
“insurer” means the person who is, or would become, the other party to a consumer insurance
contract.

70a
2. Disclosure and representations before contract or variation
(1) This section makes provision about disclosure
and representations by a consumer to an insurer before a consumer insurance contract is
entered into or varied.
(2) It is the duty of the consumer to take reasonable care not to make a misrepresentation to
the insurer.
(3) A failure by the consumer to comply with the
insurer’s request to confirm or amend particulars previously given is capable of being a
misrepresentation for the purposes of this Act
(whether or not it could be apart from this
subsection).
(4) The duty set out in subsection (2) replaces any
duty relating to disclosure or representations
by a consumer to an insurer which existed in
the same circumstances before this Act applied.
(5) Accordingly—
(a) any rule of law to the effect that a consumer insurance contract is one of the utmost good faith is modified to the extent
required by the provisions of this Act, and
(b) the application of section 17 of the Marine
Insurance Act 1906 (contracts of marine
insurance are of utmost good faith), in relation to a contract of marine insurance
which is a consumer insurance contract,
is subject to the provisions of this Act.

71a
4. Qualifying misrepresentations: definition and
remedies
(1) An insurer has a remedy against a consumer
for a misrepresentation made by the consumer before a consumer insurance contract
was entered into or varied only if—
(a) the consumer made the misrepresentation in breach of the duty set out in section 2(2), and
(b) the insurer shows that without the misrepresentation, that insurer would not
have entered into the contract (or agreed
to the variation) at all, or would have
done so only on different terms.
(2) A misrepresentation for which the insurer has
a remedy against the consumer is referred
to in this Act as a “qualifying misrepresentation”.
(3) The only such remedies available are set out
in Schedule 1.
11.

Consequential provision
(1) Any rule of law to the same effect as the following is abolished in relation to consumer insurance contracts—
(a) section 18 of the Marine Insurance Act
1906 (disclosure by assured),
(b) section 19 of that Act (disclosure by agent
effecting insurance),

72a
(c) section 20 of that Act (representations
pending negotiation of contract).
(2) The Marine Insurance Act 1906 is amended
as follows—
(a) in section 18, at the end add—
“(6) This section does not apply in relation to a contract of marine insurance
if it is a consumer insurance contract
within the meaning of the Consumer
Insurance (Disclosure and Representations) Act 2012.”;
(b) in section 19, the existing text becomes
subsection (1), and after that add—
“(2) This section does not apply in relation to a contract of marine insurance
if it is a consumer insurance contract
within the meaning of the Consumer
Insurance (Disclosure and Representations) Act 2012.”;
(c) in section 20, at the end add—
“(8) This section does not apply in relation to a contract of marine insurance
if it is a consumer insurance contract
within the meaning of the Consumer
Insurance (Disclosure and Representations) Act 2012.”.

73a
Consumer Insurance (Disclosure and Representations) Act 2012, c. 6, sch 1, ¶¶ 1-8 (U.K.)
General
1

This Part of this Schedule applies in relation to
qualifying misrepresentations made in connection
with consumer insurance contracts (for variations
to them, see Part 2).

Deliberate or reckless misrepresentations
2

If a qualifying misrepresentation was deliberate
or reckless, the insurer—
(a) may avoid the contract and refuse all claims,
and
(b) need not return any of the premiums paid, except to the extent (if any) that it would be unfair to the consumer to retain them.

Careless misrepresentations—claims
3

If the qualifying misrepresentation was careless,
paragraphs 4 to 8 apply in relation to any claim.

4

The insurer’s remedies are based on what it would
have done if the consumer had complied with the
duty set out in section 2(2), and paragraphs 5 to 8
are to be read accordingly.

5

If the insurer would not have entered into the consumer insurance contract on any terms, the insurer may avoid the contract and refuse all claims,
but must return the premiums paid.

74a
6

If the insurer would have entered into the consumer insurance contract, but on different terms
(excluding terms relating to the premium), the
contract is to be treated as if it had been entered
into on those different terms if the insurer so requires.

7

In addition, if the insurer would have entered into
the consumer insurance contract (whether the
terms relating to matters other than the premium
would have been the same or different), but would
have charged a higher premium, the insurer may
reduce proportionately the amount to be paid on a
claim.

8

“Reduce proportionately” means that the insurer
need pay on the claim only X% of what it would
otherwise have been under an obligation to pay
under the terms of the contract (or, if applicable,
under the different terms provided for by virtue of
paragraph 6), where—
X=

Premium actually charged
x 100
Higher premium

Insurance Act 2015, c. 4, §§ 14, 21(2)-(3) (U.K.)
14.

Good faith

(1) Any rule of law permitting a party to a contract of
insurance to avoid the contract on the ground that
the utmost good faith has not been observed by the
other party is abolished.
(2) Any rule of law to the effect that a contract of insurance is a contract based on the utmost good
faith is modified to the extent required by the

75a
provisions of this Act and the Consumer Insurance
(Disclosure and Representations) Act 2012.
(3) Accordingly—
(a) in section 17 of the Marine Insurance Act
1906 (marine insurance contracts are contracts of the utmost good faith), the words
from “, and” to the end are omitted, and
(b) the application of that section (as so amended)
is subject to the provisions of this Act and the
Consumer Insurance (Disclosure and Representations) Act 2012.
(4) In section 2 of the Consumer Insurance (Disclosure and Representations) Act 2012 (disclosure
and representations before contract or variation),
subsection (5) is omitted.
21.

Provision consequential on Part 2
*

*

*

(2) In the Marine Insurance Act 1906, sections 18
(disclosure by assured), 19 (disclosure by agent effecting insurance) and 20 (representations pending negotiation of contract) are omitted.
(3) Any rule of law to the same effect as any of those
provisions is abolished.

